2311 Douglas Street .
Omaha, Nebraska 68102-1214

l-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

·~Legal
f'OCKLE
Briefs

E-Mail Address:
contact@cocklelegalbriefs.com

Est. 1923

Web Site
www.cocklelegalbriefs.com

No. 19-169
JANE DOE,
Petitioner,
V.

IOWA,
Respondent.
AFFIDAVIT OF SERVICE
I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 9th day of September, 2019, send
out from Omaha, NE 3 package(s) containing * copies of the BRIEF OF AMICUS CURIAE PUBLIC DEFENDER
ASSOCIATION OF IOWA IN SUPPORT OF PETITIONER JANE DOE in the above entitled case. All parties required to be
served have been served by third-party commercial carrier for delivery within 3 calendar days. Packages were plainly
addressed to the following:
SEE ATTACHED
To be filed for:
LANCE W. LANGE
Counsel of Record
. CHANELLE HAN
FAEGRE BAKER DANIELS LLP
801 Grand Avenue, 33rd Floor
Des Moines, Iowa 50309
(515) 248-9000
Lance.Lange@FaegreBD.com
Chanel1e.Han@FaegreBD.com

CHARLES F. WEBBER
ERIN L. HOFFMAN
FA.EGRE BAKER DANIELS LLP
2200 Wells Fargo Center
90 S. Seventh Street
Minneapolis, Minnesota 55402
(612) 766-7000
Chuck.Webber@FaegreBD.com
Erin.Hoffman@FaegreBD.com

ALEXANDER E. PRELLER
FAEGRE BAKER DANIELS LLP
300 N. Meridian Street,
Suite 2500
Indianapolis, Indiana 46204
(317) 23 7-0300
Alex.Preller@FaegreBD.com

Counsel for Amicus Curiae
Public Defender Association
of Iowa

Subscribed and sworn to before me this 9th day of September, 2019.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE
General Notary
State of Nebraska
My Commission Expires Nov 24, 2020

Notary Public

Affiant

38662

Alexander Kornya

Robert J. Poggenklass
IOWA LEGAL AID

1111 9th Street, Suite 230
Des Moines, Iowa 50314
(1 copy)
Stuart Banner
Counsel of Record
UCLA SCHOOL OF LAW
Supreme Court Clinic
405 Hilgard Ave.
Los Angeles, California 90095
(310) 206-8506
banner@law.ucla.edu
(3 copies)
Counsel for Jane Doe

Kevin Cmelik
IOWA DEPARTMENT OF JUSTICE

Hoover State Office Building
Des Moines, Iowa 50319
(515) 281-5976
Kevin.Cmelik@ag.iowa.gov
(3 copies)
Counsel for Iowa

